<html>
<title> - MEMBERS' DAY HEARING ON PROPOSED RULE CHANGES FOR THE 115TH CONGRESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









 MEMBERS' DAY HEARING ON PROPOSED RULES CHANGES FOR THE 115TH CONGRESS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         RULES AND ORGANIZATION

                              OF THE HOUSE

                           COMMITTEE ON RULES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                              (RCH 114-2)

                               __________

         Held in Wasington, D.C., Wednesday, September 14, 2016
                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-446                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   









                           COMMITTEE ON RULES

                     PETE SESSIONS, Texas, Chairman
VIRGINIA FOXX, North Carolina        LOUISE McINTOSH SLAUGHTER,
TOM COLE, Oklahoma                     New York, Ranking Member
ROB WOODALL, Georgia                 JAMES P. McGOVERN, Massachusetts
MICHAEL C. BURGESS, Texas            ALCEE L. HASTINGS, Florida
STEVE STIVERS, Ohio                  JARED POLIS, Colorado
DOUG COLLINS, Georgia
BRADLEY BYRNE, Alabama
DAN NEWHOUSE, Washington
                 Hugh Nathanial Halpern, Staff Director
                  Don Sisson, Minority Staff Director
                                 ------                                

          Subcommittee on Rules and Organization of the House

                     STEVE STIVERS, Ohio, Chairman
DOUG COLLINS, Georgia                LOUISE McINTOSH SLAUGHTER,
BRADLEY BYRNE, Alabama                 New York, Subcommittee Ranking 
DAN NEWHOUSE, Washington                 Member
PETE SESSIONS, Texas                 JAMES P. McGOVERN, Massachusetts
               Justin Barnes, Subcommittee Staff Director
                 Adam M. Berg, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                                CONTENTS

                              ----------                              

                       WEDNESDAY, APRIL 14, 2016


Speakers Index...................................................     V
Members' Day Hearing on Proposed Rule Changes for the 115th 
  Congress.......................................................     1

                                APPENDIX

Prepared Statements:
Insert 1A-1: Statement of the Hon. John Culberson, a 
  Representative in Congress from the State of Texas.............    39
Insert 1A-2: Statement of the Hon. Pete Sessions, a 
  Representative in Congress from the State of Texas.............    43
Insert 2-1: Statement of the Hon. Janice D. Schakowsky, a 
  Representative in Congress from the State of Illinois..........    48
Insert 2-2: Statement of the Hon. Janice D. Schakowsky, a 
  Representative in Congress from the State of Illinois..........    54
Insert 2-3: Statement of the Hon. Janice D. Schakowsky, a 
  Representative in Congress from the State of Illinois..........    58
                             SPEAKERS INDEX

                              ----------                              
Bordallo, Hon. Madeleine Z.; a Resident Commissioner from Guam
Byrne, Hon. Bradley; a Representative in Congress from the State 
  of Alabama
Cardenas, Hon. Tony; a Representative in Congress from California
Collins, Hon. Doug; a Representative in Congress from the State 
  of Georgia
McGovern, Hon. James P.; a Representative in Congress from the 
  State of Massachusetts
Newhouse, Hon. Dan.; a Representative in Congress from the State 
  of Washington
Nunes, Hon. Devin; a Representative in Congress from the State of 
  California
Posey, Hon. Bill; a Representative in Congress from the State of 
  Florida
Rooney, Hon. Thomas J.; a Representative in Congress from the 
  State of Florida
Sessions, Hon. Pete; a Representative in Congress from the State 
  of Texas
Slaughter, Hon. Louise McIntosh; a Representative in Congress 
  from the State of New York
Stivers, Hon. Steve; a Representative in Congress from the State 
  of Ohio
 
  MEMBERS' DAY HEARING ON PROPOSED RULE CHANGES FOR THE 115TH CONGRESS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                  House of Representatives,
                                Committee on Rules,
                                Subcommittee on Rules and  
                                 Organization of the House,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room H-313, The Capitol, Hon. Steve Stivers (chairman of the 
subcommittee) presiding.
    Present: Representatives Stivers, Collins, Byrne, Newhouse, 
Sessions, Slaughter, and McGovern.
    Mr. Stivers. Good morning. I would like to call this 
subcommittee to order.
    Welcome to the Subcommittee on Rules and Organization of 
the House. I am not a big fan of opening statements. I came 
here to listen to our witnesses, so I will be very brief in my 
opening statement and then turn it over to the ranking member, 
Ms. Slaughter.
    This is the second hearing that this subcommittee has had 
this year. The first hearing we had was in April on rule XXI, 
you may remember. And today's hearing will encompass the 
entirety of the rules package for the next Congress, and it is 
a real opportunity for us to hear from Members for their 
suggestions of how we can improve the functions of the House 
under the rules of the House.
    And so Members today will present testimony on a wide-
ranging set of proposals that would change the rules of the 
House with regard to procedural motions, printing requirements 
for bill analysis, committee witness disclosures, subpoena 
authority, ethics training, et cetera. I am excited to hear 
from our Members about their proposals.
    I look forward to hearing from each of the Members that are 
testifying, and we have gotten ideas from a lot of Members, and 
I look forward to the question and answer. I think that is 
going to be very robust and interesting to understand the 
proposals that are being brought forward by our membership from 
the bottom up. And I really look forward to that today, and 
thank you all for being here.
    With that, I would like to turn it over to Ms. Slaughter. 
Thank you for being here.
    Ms. Slaughter. Thank you very much. I am happy to be here.
    Mr. Chairman, the debate surrounding the rules that will 
govern the body of the next Congress may seem arcane to some, 
but they are incredibly important. This is our opportunity to 
help steer the House of Representatives toward working better 
on behalf of the American people.
    One of the most urgent issues facing our country today is 
the gun violence epidemic tearing apart our communities. The 
sad reality is that 91 people are killed by a gun every single 
day in America, and even sadder reality was not 6 months ago we 
were using the figure 30 a day. It has now risen to 91 a day.
    Since the tragedy at Sandy Hook Elementary School nearly 4 
years ago, there have been more than 1,270 mass shootings. A 
mass shooting is characterized by the FBI as three or four 
casualties. So those have happened nationwide. More than 34,000 
people have lost their lives by someone using a gun since Sandy 
Hook--not since Sandy Hook, but in the recent time we have been 
keeping track.
    It is startling to think about what the communities have 
faced over the past few months alone. And so the sit-in by the 
Democrat minority took place in June, and this summer alone, 
2,015 people were killed by gun violence.
    These aren't nameless, faceless tragedies, Mr. Chairman. 
They are our constituents, our family members, and even our 
colleagues. They are the people who elected us, who we 
represent that are being killed and injured at an alarming 
rate. As a result of this violence, Members of the House have 
stood more than 30 times since Sandy Hook to mark a moment of 
silence in response to a gun tragedy.
    We are the people who can do something about gun violence. 
Standing up for a moment to recognize it doesn't really address 
the problem. When we took the oath of office, each of us 
promised to defend the Constitution against all enemies, 
foreign and domestic, yet the majority has failed to protect 
our communities from this carnage. The majority should decide 
today that it has stood for the last time without taking 
action. The leaders should start to do their jobs.
    Far too many Members of the majority have consistently 
answered to the gun manufacturers and the gun lobby that 
represents them, preventing any legislative effort from moving 
forward. There hasn't been a single vote taken in the House to 
address gun violence since the tragedy at Sandy Hook. That is a 
disgrace, because I think everybody in America thought that the 
carnage of destroying the lives and shooting up of 20 
elementary school children would be something that none of us 
could endure.
    While this chamber has failed to act on gun violence, we 
found the time to take up legislation to whittle away at the 
Dodd-Frank financial reform law, which will help to protect 
Americans and prevent another great recession. In fact, just 
yesterday, the House Financial Services Committee reported out 
a highly partisan bill to kill Dodd-Frank. We have had an army 
of lobbyists up here since Dodd-Frank passed to do that very 
thing.
    So these proposals and many others that we consider here 
are just one of the House bills that are taken up mostly to 
make a political statement in an election year. At the same 
time, we failed to take up legislation to address the 
skyrocketing cost of education or our crumbling infrastructure.
    It is the responsibility of every Member of Congress to 
discuss the gun violence epidemic, the Zika epidemic, to fix 
them with legislation, to stop our country from being the only 
industrial country in the world that allows that type of 
bloodshed with guns. And that is why I hope we move forward 
with one particular idea we will hear about today, a rules 
change proposed by my friend, Representative Tony Cardenas. I 
am proud to be an original cosponsor of his resolution, along 
with Representatives Joe Crowley and Norma Torres. This 
straightforward proposal will require that every moment of 
silence carried out on the floor of the House related to a 
tragedy involving gun violence is followed by a committee 
hearing on the subject of the tragedy within 10 legislative 
days.
    The Editorial Border, largest newspaper in my district, has 
already endorsed this proposal, writing, quote, ``There is no 
reason for any congressional representative to say no to this 
resolution,'' end quote.
    But this resolution alone won't solve the epidemic, but it 
is a way to start the kind of conversation and examination of 
gun violence that has been so sadly lacking under this 
leadership.
    Mr. Chairman, this is what the American people expect and 
deserve. Think what it must be like now that every time your 
children leave the school, your spouse leaves for work, you 
leave the house to go to the grocery store, whatever you do, or 
to your work, that you might not come back home. They are--now, 
living under that kind of fear is totally unnecessary in the 
land of the free and the home of the brave.
    So I look forward to hearing from my colleagues about their 
proposals to amend the rules of the House. And for the moment, 
I will yield back the balance of my time.
    Mr. Stivers. Thank you, Ms. Slaughter.
    I would now like to recognize the first three Members to 
give testimony on their proposals. Mr. Griffith, Ms. Bordallo 
and--Bordallo, sorry, and Mr. Posey. Come on forward to the 
three seats. There are two microphones at the table, so you 
will have to share a little bit. I would ask you to try to be 
brief with the descriptions of your proposals and allow time 
for questions because we do have a lot of Members who have made 
proposals, and so I am sure that a lot of the information will 
come out in the question and answer. So please try to be brief, 
if you can, and summarize what you are doing and why you think 
it is a good idea, and then the members, I am sure will ask 
questions.
    When you begin your testimony, please pull the microphone 
close to you so that people can hear it, and make sure the 
green light is turned on.
    Without objection, any written materials you have will be 
inserted into the record. We welcome you and thank you all for 
being here. I will tell you that our great chairman, Pete 
Sessions, has a group of students in his office and he told me 
he will be here. He cares deeply about your proposals and wants 
to make this House work better, and he told me he will stop in 
in just a minute. Here he is right now, the chairman of the 
full Rules Committee, our great chairman, Pete Sessions.
    So with that, I will recognize each of you, and if you want 
to just go down the line, is that okay with you, Mr. Griffith, 
Ms. Bordallo, and Mr. Posey. And again, please pull the mike 
close to you. Thank you. And let's go ahead and start with Mr. 
Griffith.

STATEMENT OF HON. MORGAN GRIFFITH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Griffith. Thank you, Mr. Chairman. I appreciate it very 
much. I have submitted two proposals. The first one is 
restoration of the Holman rule. That is a big part of the 
hearing that we had earlier this year that you all were so 
kind, so I am presenting no additional information. I just 
didn't want folks to think I had forgotten about it or that I 
no longer cared.
    The other one, I call it the Larsen rule. Representative 
Larsen was in here 2 years ago with this proposal. I thought 
maybe we could find something better. Nothing better has come 
up, and here is what the proposal says: All bills coming out of 
the Senate shall be treated under Senate rules. The concept 
being, then, the Senate would understand that when some 
relatively innocuous bill comes across, that we ought to take 
it up, debate it, and deal with it, as opposed to having it 
locked forever by virtue of a 60-vote rule. So what would 
happen in the House is you would have to have 60 percent of the 
House before you could ever take up a Senate bill. Hopefully, 
when they saw how ridiculous that was, they would then change 
their own rules.
    I yield back.
    Mr. Stivers. Thank you.
    Ms. Bordallo.

 STATEMENT OF HON. MADELEINE BORDALLO, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you, Mr. Chairman, Ranking Member 
Slaughter, members of the committee. I request that the House 
rules be amended for the 115th Congress to permit the delegates 
and the resident commissioner to cast votes when we are 
debating amendments and legislation in the committee of the 
whole, same as was granted in the rules of the House of the 
110th and 111th Congress.
    Votes cast by Members of Congress make us accountable to 
our constituents and allow them to understand where we stand on 
important issues. The rules that were adopted by the 112th, 
113th, and the 114th Congress denied voting rights for Members 
from the territories and the District of Columbia and continue 
to be--makes the House less responsive to the more than 4 
million Americans who live in these districts.
    Extending voting rights would be wholly symbolic. Our votes 
cannot change the outcome of legislation or amendments 
considered on the floor. However, these votes allow us to 
ensure that the needs of our constituents are addressed. 
Further, many of our Nation's men and women in uniform are 
residents of the territories in D.C., and these dedicated 
servicemembers sacrifice much of our country--much for our 
country and many have paid the ultimate sacrifice. In fact, the 
per capita death rate for servicemembers from the territories 
is higher than most States. Additionally, beyond high levels of 
military service, residents from the territories in D.C. 
contribute to and serve our Nation in all other aspects of 
American life. Yet we, their representatives in Congress, are 
denied the very basic right to vote on matters that impact 
their very lives.
    Mr. Chairman, permitting the delegates and the resident 
commissioner to cast votes in the committee of the whole will 
not lessen the representation of the 435 members. Rather, it 
would allow territories' voices to be heard more fully. It will 
give us parity with other Members and strengthen the long-
cherished values of this body.
    And I want to leave you, Mr. Chairman and Ranking Member, 
with something that one of my predecessors, Guam's former 
Republican Congressman and General Ben Blaz told me that when I 
was first elected to Congress in 2003, he said that as a 
delegate from a territory who could not vote on the floor of 
the House, and I quote, ``I would be a Member of Congress, but 
not one of its Members.'' So I hope that this rule will be 
changed.
    And thank you very much, Mr. Chairman, Ranking Member.
    Mr. Stivers. Mr. Posey.

STATEMENT OF BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE 
                        STATE OF FLORIDA

    Mr. Posey. Thank you, Mr. Chairman and members, and I 
appreciate the fact that you are having these meetings to try 
and get information and ideas from the bottom up.
    I am proposing what I proposed before, and that is, the 
House not consider any legislation that is not presented in 
comparative print. Almost every legislature in this country 
does that, many county commissions, many city commissions. You 
know, you get a piece of legislation before us and you don't 
know what is new or what is old, what is deleted, what is 
changed. You just start trying to read the whole thing, and you 
may be wasting a whole lot of time reading stuff that is 
already there.
    So if we want to have a process that is actually Member-
friendly, Member informative, transparent, good for the public, 
good for good public policy, and if you really care to be able 
to see what is in the legislation you are voting on, this is 
the proper course to take. We have proposed this before, and 
former speaker said it was too expensive before, said we were 
going to do it before, we don't need to have it in the rules, 
we are going to do it anyway. This is almost my--completion in 
my own State this year, and we are no closer to doing that than 
we were when I got here. The only way we are going to force 
this to get done, to stop treating Members like mushrooms, is 
to put it in the rules. Thank you.
    Mr. Stivers. Thank you all for being here. And I will open 
it up for questions, and I will start with, actually, Mr. 
Posey.
    I was a State Senator for 6 years before I came here. The 
Ohio legislature uses comparative print, and I can tell you, I 
read the bills. In Congress, it is really hard to understand 
the bills in Congress sometimes because you don't understand 
what is changing and what is--and you can't see how things are 
changed. So comparative print, I think, is a great tool for 
Members that want to read bills and understand them.
    The change that we have had since, I think, the last time 
that you proposed this is the House has gone paperless mostly. 
Won't that reduce the cost of this change?
    Mr. Posey. Absolutely. As your Ohio legislature did, most 
legislatures do, when you go paperless and you put it online or 
in electronic form, then you put the new language in green, 
underlined, and the stricken language in red, hash hyphen 
through. So very simple. It has got to be a savings of--you 
know, for every 100 hours you would spend reading bills, this 
would probably save you 96, 97 of them. I mean, you could take 
100 hours of bill reading, reduce it to 3 hours, if you know 
you can go right to the changes, you know, you look for the 
changes.
    You can--sometimes you would see it in Ohio, I know we have 
it in other States, you have a bill that thick. You could spend 
2 days reading this thing line for line and still not know what 
was really changed.
    Sometimes you will see there is only two changes in a bill 
that thick, and you can peel through there and look, oh, they 
have changed 18 to 21, they changed ``shall'' to ``must,'' or 
whatever the change is, but it is just--you know, it seems 
almost intentional to keep Members in the dark when you can't 
have simple, simple Member friendly legislation presented and 
able to read like that.
    Mr. Stivers. Thank you. And speaking for myself, it would 
be a great--it would make it much easier to read bills. I think 
it is a fabulous idea. I appreciate you bringing it forward.
    Ms. Bordallo, you already said this, but I want to make 
sure I understand it. You would give voting rights to the 
resident delegates, but they could not change the outcome----
    Ms. Bordallo. That is right.
    Mr. Stivers [continuing]. Of a vote?
    Ms. Bordallo. I think you can hear me. If the vote would be 
a tie on amendments, then they would vote again leaving us out.
    Mr. Stivers. Okay.
    Ms. Bordallo. So it makes no difference whatsoever. It is 
just the idea of being down in the floor with our colleagues.
    Mr. Stivers. Right.
    Ms. Bordallo. And then letting our constituents know how we 
stand on these issues.
    Mr. Stivers. Thank you.
    And Mr. Griffith, I think your--your Larsen rule is 
intriguing because the rules in the Senate have changed in a 
way that are frustrating to many Members like me. It used to be 
that if you were in the Senate and you wanted to do a 
filibuster, you had to stand up and talk. Now they can do 
silent secret filibusters. The cloture rule is invoked 
everywhere almost, and it really is frustrating, and I 
understand that there are some protections on it.
    There is nothing constitutional about the cloture rule in 
the Senate. It is a tradition, not a constitutional 
requirement, and I think it is ludicrous, and it does stop us 
from making a difference. So--but I have a couple of questions 
on how it would work.
    If the House were to consider Senate legislation under the 
Senate rules, would the Senate rules have to be published in 
advance, or how would you handle that, because many of us are 
not as familiar with the Senate rules?
    Mr. Griffith. Well, they are already published, obviously, 
as a part of the Senate rules, and what you do is that you 
would just refer to those documents. Whenever a Senate bill 
came over, you would refer under that. Look, I have got to 
believe there is a better way to deal with this situation, but 
seeing no better way and having heard Mr.-Larsen quite 
eloquently say 2 years ago this isn't a Democrat problem, it 
isn't a Republican problem, it is a Senate problem, that I 
thought, you know, we ought to at least have the discussion.
    It would be a huge change. It would actually, for a short 
period of time, make things worse because it would also have 
the House not able to pass some of the legislation, just like 
the Senate can't. But it is one thing when it is somebody 
else's bill that is getting gored and when all of a sudden the 
Senate sees it is their bills that are being trampled by their 
own rules, I believe it would bring them to their senses.
    Now, that being said, I would love for someone to come up 
with a better idea, another way to handle this problem, but it 
is a conflict between the House and the Senate, which is 
damaging to the Republic as a whole, and it is not a Democrat 
or Republican issue. It is a House-Senate issue.
    Mr. Stivers. It is a very provocative idea, and it is 
interesting and certainly would illustrate how difficult it is 
to get things done in the Senate.
    Mr. Griffith. Yeah. And if I might say, it is the--when you 
take the filibuster rule, the cloture rule, and the hold rule 
that the Senate have, and you put them all together, that 
tradition only dates back to the 1970s. It does not date back 
to the 1870s. It is a 1970s deal, and I must presume that they 
had some kind of a gentleman-gentlelady agreement because it 
wasn't really abused by either party until you get into the 
late 1990s, 2000, and then both parties have run amuck.
    Mr. Stivers. Thank you. Thank you all for being here.
    I would now like to recognize Ms. Slaughter.
    Ms. Slaughter. Thank you, Mr. Stivers.
    Very interesting ideas. Ms. Bordallo, I am sure you 
remember when we did have that rule.
    Ms. Bordallo. Yes.
    Ms. Slaughter. And it worked extremely well, and I 
supported it then and I support it again. It seems a terrible 
thing to ask a Member to come all the way from Guam and not 
really to be able to participate in a lot of things that we are 
doing. And I thought that it worked out very well. As you 
pointed out, if there is a tie, they revote and take the 
delegates out.
    Ms. Bordallo. Simply symbolic.
    Ms. Slaughter. Right, right. But an important symbol and 
you are here. I think we need to do that.
    And Mr. Posey, I served in the State legislature as well, 
and we had, I think, one chairman when I was there who would 
never have anything more than a page-and-a-half because that is 
all he wanted to read. Somehow I think he managed to get his 
bills down to that. I am not sure everybody really approved of 
that notion, but it was his and he was proud of it.
    And Mr. Griffith, you know, as long as I have been here, we 
have always had the sense that our problem is not Republican-
Democrat, but our common enemy is the Senate. But I think it 
was set up to be that way. We have always been told that the 
Senate is the cooling saucer for hot-headed legislation that 
comes to them from the House. It would be a little hard to, I 
think, to get that changed, but I appreciate the joke.
    I yield back.
    Mr. Stivers. Thank you, Ms. Slaughter. I would now----
    Mr. Byrne.
    Mr. Byrne. Yeah, I really appreciate Mr. Posey's 
suggestion. I was in the State Senate in Alabama, same thing, 
and I do think it is more than just saving us time. I think 
there is a real strong element of transparency here. So I 
appreciate your bringing it forward. I hope we adopt it.
    Mr. Griffith, I don't want to get back into the very long 
discussion we had about your Holman rule, but I would like to 
make a request of you.
    Mr. Griffith. Sure.
    Mr. Byrne. If you would get with the staff to work out some 
of these things, and particularly give them examples of 
amendments that you cannot offer now that you would be able to 
offer if we adopted the rule as you proposed it. If you would 
do that, I think that would be helpful to our deliberations----
    Mr. Griffith. Sure.
    Mr. Byrne [continuing]. In coming up with something that 
would somehow get to the meat of the argument that we had back 
in April, which I really appreciate your bringing this forward.
    You have done a great job of putting it all together. We 
had a very provocative discussion in April, but in order to 
follow up on that adequately, if you could get with the staff 
and if they would get with you and we could get some of that, 
that would be helpful.
    Mr. Griffith. Would love to do it. I have got lots of 
examples.
    Mr. Byrne. Thank you. Appreciate it.
    Yield back.
    Mr. Stivers. Thank you, Mr. Byrne.
    Seeing no other Democrats, Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. I appreciate all 
three of you coming forward with some great ideas. They really 
are.
    First of all, Mr. Posey, I have often lamented the fact 
that we don't do things like we do in the State legislatures in 
making it clearer what we are trying to do in effecting 
legislation.
    It would make our job easier. It would make our staff's 
jobs a lot easier, but it would make members of the public 
tasks a lot easier to try to figure out what we are doing. And 
so I think it is a win win-win, I guess, if there is such a 
thing, so I think that is a great idea.
    Ms. Bordallo--I think I pronounced your name correctly. We 
serve on Natural Resources together, so----
    Ms. Bordallo. That is correct.
    Mr. Newhouse [continuing]. I appreciate having you here 
today. This is an interesting idea that you brought forward. I 
have often wondered that myself, why territories 
don't&mdash;are not allowed to vote. Although, you do have 
voting privileges in committee, correct?
    Ms. Bordallo. In committee, that is correct.
    Mr. Newhouse. So if you are asking for a symbolic vote on 
the floor, I am not sure how that gives you parity, if you 
could help me understand that. If it is only symbolic, that is 
still, you are not----
    Ms. Bordallo. That is correct.
    Mr. Newhouse [continuing]. Not quite there. And you do have 
the opportunity to express your opinions clearly in committee, 
so that--if your----
    Ms. Bordallo. Absolutely.
    Mr. Newhouse [continuing]. Complaint is that you can't 
express how you feel on issues to your constituents, there is 
an opportunity there.
    Ms. Bordallo. I guess in answer to you, Mr. Newhouse, is 
the fact that, you know, you are elected to a body.
    Mr. Newhouse. Yeah.
    Ms. Bordallo. And you are not allowed to vote on the floor 
at all. We don't vote for final passage. That is even a 
disparity, in my opinion. But to not be able to go down and 
vote when there is a committee of the whole, it is a matter of 
just going down on the floor and meeting our colleagues once in 
awhile. You know, I am very seldom down on the floor because we 
don't have a vote, the committee of the whole or final passage. 
So I think it is just a matter of--to being--belonging to a 
family.
    Mr. Newhouse. Sure. And I get that.
    Ms. Bordallo. A whole family.
    Mr. Newhouse. I understand that, and I appreciate that. And 
then your comment that it would not--I think I can't recall 
exactly, would not affect the outcome or would be----
    Ms. Bordallo. No, not anything----
    Mr. Newhouse. So only in the event of a tie would those 
votes then be discounted?
    Ms. Bordallo. That is right.
    Mr. Newhouse. What if it was a margin of one or two?
    Ms. Bordallo. Well, whatever. If there is a margin of one, 
I think they go back and vote again.
    Mr. Newhouse. Or the total of the number of delegates----
    Ms. Bordallo. Would be left out.
    Mr. Newhouse. I see. Okay. Okay. That is an interesting 
concept. I haven't made my mind up on it yet, I just--but I 
appreciate you bringing it forward and allowing us to consider.
    Ms. Slaughter. Would the gentleman yield?
    Mr. Newhouse. Sure, absolutely.
    Ms. Slaughter. I do want to say that for about 10 years 
that was commonplace for that to happen.
    Ms. Bordallo. Yes.
    Ms. Slaughter. Thank you, Dan.
    Without any upset to anybody or it seemed to work pretty 
well, at least I don't recall ever hearing any complaints about 
it.
    Mr. Newhouse. Oh, okay.
    Ms. Bordallo. Yes.
    Ms. Slaughter. And it did make--it did make people who had 
come a great distance to get here really feel like a part of 
what was going on.
    Ms. Bordallo. And then most important too is our 
constituents don't know where we stand because our votes are 
never publicized or whatever, you know. We may be on the bill 
as a cosponsor, but----
    Mr. Newhouse. Aren't committee votes publicized?
    Ms. Bordallo. Well, yes, they are, yes. But, you know, in 
every aspect. I am on Defense and I am on Natural Resources, 
but what about all the other, the Health and Education 
Committees and so forth, so----
    Mr. Newhouse. Good point. Good point. I appreciate that. 
Well, like I said, it is an interesting idea, and I appreciate 
having a conversation.
    Ms. Bordallo. And we did have it in two Congresses, we did 
have the right to vote, but it was taken away then when the 
parties changed.
    Mr. Newhouse. Well, thank you for bringing the idea 
forward.
    Ms. Bordallo. You are welcome.
    Mr. Newhouse. Mr. Griffith, you always come forward with 
interesting great ideas. The one thought that occurred to me, 
though, we all complain about the Senate, right, and I guess 
that is a part of the--just the natural dynamic. But the one 
thing we complain about most is the 60-vote margin.
    So it seems to me that--I guess I get that. I get where you 
want to get back at them, get them to change their rule, bring 
it more so that we can get our things passed through the Senate 
more easily. But it seems to me like we would be doing exactly 
the same thing that we complain about all the time by putting 
in their rules into our House. And so tell me how that makes 
sense.
    Mr. Griffith. And the concept would be--I mean, and 
Chairman Stivers touched on this, is that the historical 
filibuster rule was--it actually had a higher threshold at one 
point at 67 to stop it.
    Mr. Newhouse. Yeah, right.
    Mr. Griffith. But you had to be live on the floor, either 
you or a series of people making your case to the American 
people. What happens now is they put in this--with the 
combination of the three, the filibuster, the cloture, and the 
hold rule, they can effectively not take up a piece of 
legislation. But instead of standing on the floor explaining to 
the American people why it is they feel like this is a piece of 
legislation that should not be voted on or why it is something 
that is bad, they can go home and do whatever they want to do 
at home, they can go to a fundraiser, they can go have a nice 
steak dinner at Charlie Palmer's, and so there is no pressure.
    What you found with the historical filibuster rule, which 
did slow things down, but it gave time for people to think 
about it and listen to the complaints. What happened then was 
you had people who, A, were very passionate. It didn't happen 
on your regular bills. It only happened in the hot button 
issues. And after several days, worstcase scenario, either one 
side got tired or the other side figured out, these people have 
a point, and they would work out their differences. And the 
process did not come to a complete halt.
    Now, you are absolutely right, we would be bringing those 
what I consider to be defective rules, and contrary to the 
principles of American democracy in a Republican forum, we 
would--they are contrary to that. We would be bringing those 
into our House, but my belief is it would be for just a short 
period of time, because once the Senators had some great idea 
that 90 out of 100 voted for it and sent it over here, and a 
couple of us said, no, we are putting a secret hold, you won't 
even know which one of us is putting a secret hold on it, and 
you have got to get 60-percent of the House to support taking 
it up, I think they would understand the frustration, and it 
would be a good lesson.
    Now, that being said, there has got to be a better way. I 
recognize there has got to be a better way, but I haven't 
figured it out. So I put this in so that folks would think 
about it, come up with a discussion, and maybe we can come up 
with a plan to let the Senate know that, you know, there may be 
some things that that is what they want to do on, but when it 
becomes every bill you send over there becomes a struggle with 
that rule, it is truly damaging the American Republic.
    And I feel a little bit dangerous in saying this, but for 
the historians out there, this--the way the Senate is operating 
is actually akin, it is not identical, but it is akin to 
Calhoun's steering of the majority theory, which he proposed in 
order to protect slavery.
    Now, we are not facing that issue today, thank God, but 
there are issues of the day that can be jammed up by folks who 
are operating with secret holds and then requiring a super 
majority to get something out. No government teacher teaches 
the kids that in school, that it takes 60 percent to pass a 
bill, but that is what is happening now, and one body is 
holding up the entire process. And so we have got to figure 
out--I think, as a House, we have to figure out a solution. 
This is--I recognize this is a flawed solution. But without any 
solution being placed on the table, we will never have a 
discussion, so I put it in.
    Mr. Newhouse. Yeah, right, right. And I don't disagree that 
giving them a taste of their own medicine might help, although 
many members of the Senate are former House members too, so 
they should understand. Something happens to a person's memory 
when they walk across the way. But I appreciate you bringing it 
up for discussion.
    As far as the Holman rule, it also has a long history in 
Congress, one that I haven't done a lot of research on, but it 
goes back into the 1800s. Is there anything in particular that 
you are looking for as far as programs or changes to benefits 
being provided to any beneficiaries? Is there anything that you 
are trying to zero in on or is it just a----
    Mr. Griffith. Well, it is a general frustration that I have 
had since coming here 6 years ago, that there are things that 
you can't really get to because it is mandatory spending. And 
when I----
    Mr. Newhouse. Yeah.
    Mr. Griffith [continuing]. Burrowed down to find out what 
the problem was, it is our own Rule XXI. And so if you change 
XXI (2)(b) and (c), it is still going to be rare. There are 
going to be times when there is probably a rule that waives 
those rules, and I understand that, but to be able to at least 
offer.
    And the one that first brought it to my attention was I saw 
us spending $70 million on the wild horses program. And while 
there may be some benefit in that program, I can tell you that 
is a lot of money to be spending on 50,000 wild horses to have 
a retirement home out West when we have needs with children 
with disabilities, and lots--and anybody can pick out their 
favorite need, but $70 million would solve a lot of the other 
issues that we have. Not all of them, but there is a fair 
number of issues you could pick off the table and say here is 
your funding if you could get to that $70 million. But believe 
it or not, the retirement homes for wild horses is mandatory 
spending.
    And I have submitted previously to the committee a list of 
all the different things that are mandatory spending. So most 
people here, you know, when they hear mandatory spending, they 
think about the big projects, Social Security, et cetera, those 
types of--Medicare, and they are right. But there is a lot of 
other programs that we could be looking at and trying to decide 
whether or not we should actually be funding them and using our 
power of the purse, which we cannot do.
    And the rule was created in 1983 to keep Reagan Republicans 
and Blue Dog Democrats from cutting spending. And so it was not 
created to solve a problem other than crazy Republicans trying 
to control the budget.
    Mr. Newhouse. That is good to see some things never change, 
right?
    Mr. Griffith. Yes, sir.
    Mr. Newhouse. Well, again, you always bring good ideas to 
the front, so I appreciate that, all of you, your ideas today. 
And I yield back my time.
    Mr. Stivers. Thank you.
    Now I would like to recognize the great chairman of our 
full committee, our chairman, Pete Sessions.
    Mr. Sessions. Mr. Chairman, thank you very much. And I want 
to first thank each of you for being here. I also want to thank 
Louise Slaughter. Louise Slaughter has taken her time to be 
here as the ranking member. And Louise, thank you for doing 
this.
    Louise had the opportunity, when she served as chairman, to 
sit through and try and make wise determinations. Each of you 
three, in fact, have brought pretty good ideas to us today. I 
will go to Mr. Posey first.
    Mr. Posey, I don't presume to know everything about it, 
meaning the process, but we have a very intricate process and 
overloaded system. We have an overloaded legislative counsel 
who does all these matters. We have, all of a sudden, a bill 
that comes up and 113 people decide to rush leg counsel and to 
get things done and for them to determine what they are doing.
    I think that there is probably two things that I have as a 
goal of being the chairman of the committee, and both have 
eluded me thus far. The other one is how we can change the 
jurisdictional elements as it relates to homeland security. The 
jurisdiction is in a broad group of people, and we just have 
not gotten our hands around that.
    I would like to tell you what we told you 4 years ago or 6 
years ago, it is a work in progress. We are trying to get at 
it, and we have made an incredible number of changes as it 
relates to the Government Printing Office, as it relates to 
getting bills done where they actually are able to 
substantively identify things. And I think that if I were going 
to be forthright with you, I should accept the challenge to 
say, how about in just the major bills that come out of 
committee, if not the amendments that come, and we have got to 
understand more about this.
    This happened to me yesterday. The committee knows that I 
was speaking with a Member, and I actually talked with him 
about the changes that he proposed and where they were all in 
line with what he said they were doing with the actual 
legislation. And it is not easy for Rules Committee members to 
actually see these delineations also.
    So what I am going to promise you is I am going to dive, 
not back into that issue, but to see where we are going on that 
progress. I think if there is one thing that I should stand 
for, it is trying to make the process better. You have been 
nothing but kind to me. Katy even still talks to me despite me 
not getting this done, but I want you to know it is not an 
effort that has been--that we have thrown away. We just can't 
get at it yet with the volume of work and then having the money 
to do it.
    I think everybody knows that we are operating off old 
dollars from years back, and we have invested that money in 
people instead of technology. And everybody is under that same 
strain. And so I will promise you that when I see you, that I 
need to have a better response. And I want to thank you for 
having the--really the sincerity to come up here and offer 
ideas as opposed to saying: Look, guys, I am sick and tired of 
this. I have asked you before. So I want to----
    Mr. Posey. I do that too, Mr. Chairman.
    Mr. Sessions. Well, you have been very gracious, but some 
elements have eluded us.
    Secondly, I want to say that the issues that you bring 
forth about the voting of delegates might be somewhat of a new 
issue to some of our new Members. It is not to older Members 
who have been here. There are a number of systematic reasons we 
could get into whether we should have--D.C. should have people 
that vote, whether they should have a United States Senator, 
and there are some bit of us that have tended to look at the 
Constitution in these matters.
    And I want you to know I am delighted that you are here, 
and bringing the issue up is important. I am not promising any 
change this time, but you are ensuring that there will be a 
discussion. And I think, from that perspective, you would not 
consider that a victory but that we do recognize what we are 
doing and we probably need to get better at it.
    Yes, ma'am.
    Ms. Bordallo. Mr. Chairman, I just want to make it very 
clear that, you know, although we wish we could have final 
vote--final vote on the passage of bills, but we are just 
asking for this committee as a whole vote. And I understand it 
has been through various courts and it has come out 
affirmatively, so I just want you to know that there has been 
some background done on this. And as I said, it is just a 
symbolic vote, and we represent 4 million American citizens.
    Mr. Sessions. Yes, ma'am. But you don't come from States.
    Ms. Bordallo. Well, I guess you can say that.
    Mr. Sessions. I guess I could. And a body--Mr. Griffith is 
here arguing really a great--not only a great argument but a 
great come back. And I think that perhaps Mr. Newhouse said it 
best when he said, you know, what is good for the goose is good 
for the gander. But in fact, a body, a body, a United States 
Senate or United States House is entitled, under the law, to 
set its own rules and to establish therein how it will operate 
under a constitutional perspective.
    I simply wanted--not trying to be nasty--will recognize, I 
am glad you are here, I am glad you are bringing this issue, 
but there is some bit of disagreement about how the votes will 
take place here, and we do see it differently. Louise sees it 
differently, and she had an opportunity when they held the body 
to do that, and yet you are speaking respectfully to two 
Members, and I think it updates our new Members and it will be 
a discussion. And we will have to consider this. And I would 
like to say that we have a Republican, at least one 
Republican----
    Ms. Bordallo. Yes, we do.
    Mr. Sessions [continuing]. In that perspective also who 
was----
    Ms. Bordallo. I thought that would help.
    Mr. Sessions [continuing]. Most gracious and genuine when 
she approached me as chairman of the committee some 2 years 
ago. So I acknowledge that, but there is a philosophy behind 
it.
    Mr. Griffith, what you have done here is most intriguing. 
It has also been said you want us to do what you don't like 
them doing. We would do the same, we will treat you the same 
way you treat us. I would suggest to you--and I know we have 
got an 11 o'clock meeting with each other about that, or at 
least I think we do, where you are going to bring this and 
other ideas to me. I would simply say this: I believe, in some 
respects, except for the rules of the Senate as they apply 
necessarily to legislation about whether it is considered 
permanent or whether it is considered under a 10-year 
reauthorization, we really, I think, fall to the right value, 
and that is, we have a vote on the rule on the floor where 50 
percent of people do get a chance to fully express themselves. 
We do pass legislation that exceeds the 60 vote threshold.
    Because our body is larger, that 60-percent becomes almost 
inconsequential if it were related to whether we would move a 
bill forward. In other words, whether you are going to get 
cloture or not. But in some respects, this body has chosen to 
have the rules that it does, and our fine young chairman now--
that is why we are entertaining these ideas and notions, but 
what I would suggest to you is, it is worthy of some bit of 
understanding, but we find ourself on a regular basis, as we 
have up at the Rules Committee, where certain parts of what the 
Senate has passed were done with 60 votes, which made it 
permanent law.
    What does permanent law mean? Permanent law means it has no 
ending date until another set of changes where 60 votes 
overturn that law. And I just think that for us to apply that 
rule, which I deeply disagree with, could have some 
implications downstream of permanent law in this country, up to 
and including, what happens when we did our--when we were in 
the minority and we got an $870 billion stimulus package that 
could have gotten 60 votes and become permanent law and they 
could have just done what they chose.
    I think it binds us different when we operate the way that 
we do, so I admire you for what you got. I want to learn more 
from you. There has been no Member of this body that has sat 
in--except the Rules Committee, that sat in Rules Committee 
meetings other than yourself. And I think you are thoughtful, 
and I admire you for it. I am interested in exploring more 
about it. But my observations as an insider that has done this 
for 20 years is: I think we live up to most of what you would 
want anyway. But I think it is still an interesting concept, so 
I guess we entertain each other a lot up here.
    I yield back my time.
    Mr. Griffith. I appreciate your comments, Mr. Chairman, and 
it was put in as a place holder, just to have a discussion 
about what do we do about this. Because I do see that, even if 
the Senate doesn't, I see what they are doing in their rules, 
which is, as you pointed out, they have a right to do as a 
body, but what they are doing, I believe, is damaging the 
Republic. The main cause of why the American public is 
dissatisfied with the legislative branch as a whole, because 
they don't see us getting things done, and yet our House has 
produced a lot of bills, and we have passed more bills off the 
floor than historically during this same 2-year period has been 
done in this Congress, but they just go over and languish in 
the Senate because there is a secret hold with a requirement 
for a cloture vote and a filibuster, and you end up with no 
action whatsoever.
    So I do appreciate your comments, and as I said to Mr. 
Newhouse, I recognize this is a flawed suggestion, but I 
thought we ought to have a discussion.
    Mr. Sessions. Yes, sir.
    Mr. Stivers. Thank you, Mr. Chairman. Thank you to all 
three Members of the panel.
    I do have two things to read into the record. First from 
John Culberson, a letter which explains a proposal that he has. 
I would like that read into the record and submitted for the 
record.
    [The statement of Mr. Culberson can be found in the 
Appendix as Insert 1A-1]
    Mr. Stivers. And second, our great chairman, Pete Sessions, 
asked legislative counsel to review the Ramseyer rule and 
recommend changes of how the rule can be revised to accomplish 
the goal of transparency that Mr. Posey has. And I want to make 
sure we get you a copy of what leg counsel has said, but I 
would also like that submitted into the record without 
objection.
    Without objection, those will be entered into the record.
    [The statement of Mr. Sessions can be found in the Appendix 
as Insert 1A-2]
    Mr. Stivers. The next--thank you for being here.
    And we are going to have the next panel, and I believe Mrs. 
Radewagen had stepped into the hall. Is she still out there? 
Can somebody check?
    So I would like Mr. Rooney, Mr. Cardenas, and maybe Mrs. 
Radewagen, if she is still out in the hall. She is not there.
    So I will have--we will have Mr. Rooney and Mr. Cardenas 
here for the second panel. Again, there are two microphones at 
the table, so now there are two of you so that should not be 
very hard. Please pull the microphone close to you and make 
sure the green light is turned on so that the cameras and 
everybody in the room can hear you.
    Without objection, any written materials you have will be 
inserted into the record, and we welcome your comments. And 
thank you both for being here, and thank you for your very 
thoughtful proposals to change the House rules in the next 
Congress.
    If it is okay, we will just go from that direction over, 
and we will start with Mr. Rooney.

  STATEMENT OF HON. THOMAS ROONEY, A REPRESENTATIVE FROM THE 
                        STATE OF FLORIDA

    Mr. Rooney. Thank you, Mr. Chairman. There we go.
    So members of the committee, I would like to ask you what 
do the following things have in common? The Louisville Lake 
Dike repair, the Buckeye Lake dam repair, the dredging of the 
Rochester Harbor, or the Herbert Hoover Dike repair. These are 
all Army Corps of Engineer projects that we have in our 
districts. I couldn't find one in yours, Mr. Newhouse, so I 
will keep digging. We all do.
    And I have a bill called H. Res. 813, which is being 
amended for the House rules to exclude existing or proposed 
water resources development projects of the Army Corps from the 
definition of our congressional earmark ban. And the reason I 
do this is very simple.
    I have been in Congress now for four terms, going into my 
fifth term. Some here have been shorter, some longer. One thing 
that I have noticed since we have instilled this ban is that 
our constituents are getting more and more frustrated over our 
inability to do our constitutionally mandated job, which is to 
deliver and to govern and to problem solve when they pay their 
Federal taxes to us, and then they ask us, as Members of 
Congress, to address these issues for them.
    And our only recourse now is to basically write a strongly 
worded letter to the Army Corps asking that they perform a duty 
for us in our own districts. It kind of feels like a hollow 
exercise that we are essentially reduced to being cheerleaders 
for our constituents rather than governing and problem solvers.
    The other difference in this resolution, slash, rules 
proposal change is that unlike a lot of the other reasons we 
have the earmark ban, which there was improprieties, there is 
bad actors, there were bad earmarks, and then we came up with 
this earmark ban, and we had some solutions with being able to 
apply for competitive grants. There are no such competitive 
grants for Army Corps of Engineer projects. You either get them 
or you don't.
    And when I first got elected in 2008, we could direct the 
Army Corps in our district to do certain projects that we felt 
were important and a priority.
    So when we did the earmark ban, all we could do thereafter 
was write these strongly worded letters. We go back to our 
constituents, we go back to our community leaders, and where 
they used to appreciate what we did for them, now they just 
have this look of disappointment. It is the disappointment that 
we all feel as Members of Congress when people see our 
inability to get things done and why Congress' approval rating 
is so low.
    And why do we do this? The only reason that I can think of 
is because it looks good politically that we say we don't do 
earmarks. The problem with that is, is that we don't spend any 
less money. We just punted our obligation of the power of the 
purse to the administration. They still spend that money. The 
Army Corps still does projects, but they prioritize what they 
want to do, not us.
    So we can't do anything for our own constituents that pay 
Federal tax dollars and expect us to get things done for them. 
So this rule change basically is just to say: Let us do our 
jobs again. At least with regard to the Army Corps of Engineer 
projects, let us be able to go home to our constituents and our 
people and say: What is important to you I will get that done, 
if I feel like it is the right thing to do, rather than just 
begging the administrative branch to do it for us.
    And ladies and gentlemen of the committee, I thank you for 
your time. I thank you for your consideration. I know that this 
is a political issue, but we have got to move on, and we have 
got to be able to start getting things done for our 
constituents, especially in a divided government like we have. 
This is something that Democrats and Republicans alike should 
be able to come together so we can do our jobs and feel good 
about doing our jobs again because we are getting things done 
for our constituents.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stivers. Thank you very much.
    Mr. Cardenas, go ahead.

 STATEMENT OF TONY CARDENAS, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Cardenas. Thank you very much. I appreciate this 
opportunity. And thank you for introducing that rule change. I 
love it. I used to be local government where they don't call 
them earmarks. They just say you are taking care of your 
constituents.
    Mr. Rooney. Yeah. Yeah.
    Mr. Cardenas. So thank you.
    Thank you members of the Subcommittee on Rules, young 
Chairman Stivers, as my colleague, Mr. Sessions, referred to 
you, and young Ranking Member Slaughter.
    Ms. Slaughter. Hardly.
    Mr. Cardenas. Good morning everybody. Thank you for 
allowing me to speak to you on this rule change today. My 
proposed change to the Rules of the House would amend rule 
Number XI by adding the clause titled, ``Hearings Related to 
Moments of Silence.'' This clause would require that every 
moment of silence observed by the House floor, because of a gun 
violence tragedy domestically here in the United States, would 
be followed by a hearing within 10 legislative days of that 
moment of silence on the House floor. The Speaker of the House 
would designate the appropriate committee or subcommittee to 
carry out the hearing. The hearing would have to be about the 
gun violence tragedy that the moment of silence was observed 
for.
    Again and again we have stood in silence on the House floor 
remembering the victims of mass shootings, remembering and 
honoring victims from all across our country. All of these 
moments of silence have at least one thing in common. They were 
not followed by meaningful legislative action or hearings by 
this House. We are tired of not having an answer for our 
constituents when they ask us what we have done to cut down on 
the number of mass shootings or to make the process for buying 
a gun safer.
    I introduced this rule change as a resolution, House 
Resolution 694, on April 20, which is the 17th anniversary of 
the Columbine shooting that shocked our Nation. This resolution 
now has 141 cosponsors. There have been at least 31 moments of 
silence related to gun violence observed on the House floor 
since the shooting at Sandy Hook Elementary School. That is an 
average of eight moments of silence a year since the Sandy Hook 
shooting.
    This rule change would require legislation or--it would not 
require legislation or even draft legislation. Just an honest, 
open, transparent discussion about public safety and how to 
best protect the American people, a hearing of the House of 
Congress, just a hearing so we can find out what happened and 
what we can do to stop something like it from happening again.
    I would be misstating the reason for me introducing this 
resolution if I just said it was out of frustration, but I 
introduce this because on any average day in the United States 
of America, 89 people die due to gun violence. On average, 
every day, 31 people are killed by someone using a gun, 55 
people commit suicide every day, 2 people are killed 
unintentionally, and at least 1 person is killed by police 
intervention.
    What that breaks down to, ladies and gentlemen, over an 
annual basis is 32,500 people die as a result of gun violence 
every year in the United States of America. 11,294 people are 
murdered, 19,992 people killed themselves, 561 people are 
killed unintentionally, 414 are killed by police intervention, 
and 254 die, but the intent is not known.
    In addition to that, of the people who die every year, 
75,962 people are shot and survive due to gun violence, 55,009 
people are injured in an attack, 3,791 people survived a 
suicide attempt, 16,334 people are shot unintentionally, and 
827 people are shot by police intervention.
    Those are some of the things that turn out in statistics, 
but behind every single one of those incidents are families and 
communities that are left in anguish and wondering why Congress 
is doing nothing about it. Thank you.
    Mr. Stivers. Do you yield back, sir?
    Mr. Cardenas. Yes, I yield back. Thank you.
    Mr. Stivers. Thank you both for being here. Thanks for your 
proposals and your testimony.
    Mr. Rooney, I find your idea particularly thought provoking 
and engaging. Tell me--obviously under Article I, section 8 of 
the Constitution, we are the ones responsible to appropriate 
money. But tell me, would this increase spending by even a 
dollar or would it just have us do our job to direct the 
spending as we so believe?
    Mr. Rooney. Absolutely not. I mean, that is one of the 
great myths of the earmark ban that, you know, is perpetrated 
that somehow that there has been a reduction in the amount of 
the pie that is spent because we don't do earmarks. There is no 
reduction. It is the same. It is just we don't control how the 
money is spent, which goes exactly to what you say under 
Article I that our responsibility on Ways and Means is tax and 
on Appropriations is to spend the dollars that our constituents 
send us. So there is no increase in spending. It is only who 
gets to decide where that money is spent.
    Mr. Stivers. Thank you. I think that is a very important 
point to make, but thank you for your thoughtful idea. I have 
no further questions.
    Ms. Slaughter.
    Ms. Slaughter. Boy, I do. Mr. Rooney, thank you.
    Mr. Rooney. Thank you, Madam Chair.
    Ms. Slaughter. I used to represent a small town on Lake 
Ontario, about a few thousand people, when fishing was so 
wonderful, but they didn't have--they couldn't possibly bond 
for water sewage systems. And we were able to put a little 
money together here in an earmark so that they could build an 
economy, for goodness sake. Every earmark we ever did was a 
request by a municipality. We signed a letter saying that we 
had no financial interest of any sort in it, and as you point 
out, we were simply doing what our constituents excepted us to 
do, step in when there was something there was no other answer 
for.
    And I have deplored that loss so much. And as you pointed 
out, keeping the Port of Rochester dredged is no small item 
that we have to beg for practically on our hands and knees 
every year.
    I thought doing away with the earmarks, which really is 
what was pointed out, wasn't anything that benefited any of us 
personally in any way. We were simply doing what our 
governments were asking us to do that they couldn't do by 
themselves. I wish to goodness that that would happen, and I 
thank you very much for bringing that up.
    Mr. Cardenas, of course, I am the cosponsor of your 
resolution.
    Mr. Cardenas. Thank you.
    Ms. Slaughter. I think very much about it. I wanted to talk 
about--awhile ago when I first made my introductory speech, I 
mentioned 34,000 people being killed since Sandy Hook seems 
kind of surprising to me, but that is the actual number. And we 
have done those 31 remembrance of silence that--sometimes two 
and three a month, and it is almost a meaningless thing if 
those of us who were standing at moment of silence, are the 
very same people who could do something about it. It simply 
does not let us off the hook that we say we are really sorry it 
happened if we don't try to make sure it doesn't happen all the 
time in the country.
    You remember that all we all said about how important it 
was when we did the background checks and that people who were 
mentally ill were not going to be able to get those kinds of 
weapons, but yet every time we have something like Sandy Hook, 
Aurora, those persons and perpetrators have always found being 
in some direction or other mentally impaired. So whatever we 
are supposed to be doing there isn't working, and that may be 
because we don't do gun shows and people can order them or buy 
them from each other.
    It is--what we are doing is obviously not working. But I 
find that for me, as a Member of this Congress, that the fact 
that we can't even address it is very sad, and I hope we can 
change that.
    Mr. Stivers, thank you very much.
    If you will excuse me, I have got to go meet the president 
of Rochester, and then be right back.
    Mr. Stivers. Sounds like a very important constituent. All 
right. No problem. I know Mr. McGovern is on his way.
    I would like to recognize the distinguished member from 
Alabama, Mr. Byrne.
    Mr. Byrne. Yeah, Mr. Rooney, I appreciate your amendment. I 
think it raises a very important issue that we need to discuss. 
It always perplexes me why we would rather have unelected 
government bureaucrats make decisions about how we spend money 
in our districts rather than the people that were elected by 
the people of the United States. So I appreciate your bringing 
this to the floor.
    You brought a rightful focus on the Corps of Engineers, and 
I am sorry I missed your testimony. I was at another committee 
meeting voting or supposedly voting.
    Why did you limit it just to the Corps of Engineers? Was 
there some particular purpose?
    Mr. Rooney. I think it was just built up frustration over 
the years as an appropriator, but also because it is the one 
thing that we can sort of argue, I think, with even more 
confidence that because there are no competitive grants that 
you can sort of like gear people that are looking for those 
Federal dollars for, there is no Federal grants that they can 
apply for, they really are just at the mercy of how the 
administration wants to spend that money with no input from us 
and no input from like the competitive grant process, whoever 
has the best application, I guess you would say.
    So to me, this just seemed like the easiest sort of toe in 
the water for us to be able to say, okay, we are not doing 
earmarks, I get that, but at least, you know, there is 
competitive grants. But where there is no competitive grants 
with regard to Army Corps projects, there is really no other 
recourse for us other than to write a letter to the 
administration begging them that this is really important to us 
back home. And they can tell us, you know, to take a hike if 
they want to, and they do a lot, especially in my district, it 
feels like.
    Mr. Rooney. So this just takes that power back to what I 
think the Founding Fathers originally wanted us to have, to be 
able to represent our people and govern and solve problems.
    Mr. Byrne. That really gets to the other question I was 
going to ask you. It sounds to me like one of the bases for 
your assertion of this is that you are reasserting the 
prerogatives under Article I of the Constitution on behalf of 
the legislative branch, which we have essentially given away to 
the Article II executive branch.
    Mr. Rooney. That is right. And obviously, as an 
appropriator, I would like to, as Ms. Slaughter said, have the 
opportunity to revisit, at least when it comes to 
municipalities or other taxpaying entities. I understand that 
there were, again, as I testified, bad actors in the earmarks 
time, but we cut off everything. But we didn't reduce spending, 
which is this great myth out there, that somehow because we 
don't do earmarks there is less spending. There is not.
    So we basically just sacrificed our constitutional duty to 
allocate those dollars to the administrative branch and 
perpetrating, I guess, this myth to the public that we don't do 
earmarks, aren't we great? It is like, no, we are not great. It 
just adds to the dysfunction that this Congress feels every 
time we go home.
    I remember when I was first elected, as I said, that we had 
earmarks, my constituents were actually glad to see me when I 
went home. And that is one of the frustrating things, is that 
you feel like you have nothing for them when you go back.
    And so this is just one of those things that I think that 
is our obligation, it is our duty. There is no other way for 
people to be able to apply for grants in this situation. So if 
we are not going to do earmarks right now, fine, but at least 
let's look at Army Corps of Engineer projects, because there is 
no other way for them to be able to use their Member of 
Congress to get those projects complete.
    Mr. Byrne. Well, I appreciate your bringing this forward, 
because at the very least it gets us talking about this issue 
and having a more well-reasoned position on it, however we come 
out. And I am not sure where I stand on it myself.
    But I really appreciate you bringing it up. Thank you.
    Mr. Rooney. Thank you, sir.
    Mr. Byrne. I yield back.
    Mr. Stivers. Thank you.
    Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    I appreciate both of you coming forward this morning with 
some good ideas.
    So just in the order of your appearance, Mr. Rooney, I am 
from the West. We have been experiencing tremendous periods of 
drought in the West. Mr. Cardenas understands that as well. Mr. 
Nunes is in the room. So we have been very frustrated getting 
the proper authorization to move forward on projects that would 
improve water storage, water availability. So I certainly 
applaud your efforts in this regard to help move those projects 
forward with the Army Corps.
    Would you be open to including the Bureau of Reclamation in 
this idea to help ameliorate some of the problems that we see 
with surface water projects moving forward in the West?
    Mr. Rooney. Yes, sir. It is interesting. Since I proposed 
this bill and got, I think, over 20 cosponsors now from both 
sides of the aisle, I think evenly split, I have had many 
Members come up to me asking if I would be open to adding 
certain things like that to it. And you can tell that there is 
obviously good justification for all the ideas that would be 
added onto it.
    Again, the reason why I just limited it to this is because 
I felt like if we kept adding stuff, there are a lot of things 
that you can justifiably keep adding to it, but that I maybe 
risk it losing its kind of strength in its simplicity, so to 
speak.
    But me personally? Absolutely. But I think that first 
things first. And if we can at least convince our colleagues 
that we should be able to dictate what Army Corps projects are 
a priority in our own districts, then we can move on to those 
other issues.
    Mr. Newhouse. Like I say, I appreciate the thought.
    You did bring up, I believe, the Corps' Chief of Engineers 
recommending something like 28 projects, and that had a total 
price tag of, I think, about $5 billion, which is several 
billion dollars more than their current funding level.
    So in reference, sir, to the questions from Mr. Stivers, 
and you have made several points that this would not increase 
spending, could you address how we would make up that 
difference in funding levels?
    Mr. Rooney. From what I understand of the Energy and Water 
appropriations bills, that the funding projects would not break 
the budget caps that we have. It would simply ensure that 
Members have control over what the existent levels are. So I am 
not really sure where you are getting your funding level that 
you just cited. I will find out and get back to you to make 
sure that we are on the same page.
    Mr. Newhouse. Okay.
    Mr. Rooney. But we specifically crafted this that there 
would be nowhere outside of what the existing appropriations 
level would be moving forward. But to be sure, I will get my 
staff to get back to you on that.
    Mr. Newhouse. Well, it comes from your white paper on the 
bill itself.
    Mr. Rooney. Okay.
    Mr. Newhouse. So we will get together and talk about that 
later.
    Mr. Rooney. Yeah. Okay.
    Mr. Newhouse. Just so I am clear about the increased level 
and we are able to deal with that. Certainly I agree with Mr. 
Byrne, it seems like we have abdicated much of our 
responsibility to the executive branch. There are certainly 
arguments to be made for the fact that we represent areas of 
the country, we should know from our constituents the needs 
better than the executive branch because that is our 
neighborhoods and we get the input directly from our 
constituents. So I appreciate the thought that you bring 
forward.
    Mr. Cardenas, I appreciate your bringing forward this very 
important issue. I understand your frustration that you share 
with many Members of the Congress. And I guess I have some 
question about if this is the right path to take. So I want you 
to help me understand. Certainly I see moments of silence that 
we take as a body, and I agree there is way too many, but they 
are meant to honor or to mourn or pay tribute to individuals. 
And I think it is a tremendously important time for us as a 
body to gain unity as a group. So they are important things for 
us too as well as we go through this exercise.
    Having a requirement that a hearing is held within 10 days, 
though, poses some interesting, I think, perhaps conflicts that 
maybe you could help me with. A lot of times police 
investigations last much longer than 10 days. So we wouldn't 
have complete facts or the story of what is happening. Perhaps 
an investigation at our level I am not sure would be as 
effective as it could be.
    So could you help me understand how we would not interfere 
with an ongoing police investigation if that was a requirement 
for such a short period of time to hold one.
    Mr. Cardenas. Sure. Thank you. That is a great question. 
And to your first point of the moments of silence, my 
resolution here would not preclude us from having moments of 
silence. As a matter of fact, what it would do is it would only 
be triggered if in fact we have a moment of silence on the 
floor. So it wouldn't impede our ability or our need to have a 
moment of silence to show our solidarity with the communities 
that have been afflicted by such a tragedy.
    Secondly, to your question about how it would or wouldn't 
interfere with an investigation and/or if an investigation 
hadn't got enough facts out, I can tell you this, when we have 
a moment of silence on the floor 99 percent of the time there 
has been tremendous national coverage on the matter, there have 
been statements by the local authorities, and it tends to 
enlist the involvement of the national authorities as well.
    When you look at Sandy Hook, for example, much information 
had already been in the public within 2, 3, 4 days. So when I 
talk about 10 legislative days, we could be talking about 
having a hearing 3 weeks later. Say we have a break between 
those legislative days, we could have a hearing as late as a 
month, even 2 months later.
    So I picked 10 legislative days as a compromise in my mind 
to while it is still fresh in our minds, yet at the same time 
it gives enough time for us and the Speaker to go ahead and 
deliberate as to which committee or subcommittee would in fact 
have the hearing. But most importantly, it would give us, as 
the most collective legislative body in the country, to 
actually speak to the issue and the tragedy that was of such a 
height that we actually had a moment of silence on the floor of 
the Congress.
    So to me the 10 legislative days is enough time for us to 
have gleaned information on that and for us to call forth 
experts to educate us and to apprise us as to what perhaps 
contributed to such a tragedy.
    Mr. Newhouse. Yeah, I guess I hadn't thought about the 
possibility it could be several weeks or months.
    Mr. Cardenas. Yeah. It is legislative days, not calendar.
    Mr. Newhouse. Yeah. But it could be just a matter of less 
than 2 weeks too, depending on when it occurred. And so I guess 
that is my concern. Instead of holding a hearing using only 
resources available through the newspaper or media, how 
effective would that be and how productive would it be.
    Mr. Cardenas. Another point that you bring up, thank you 
very much, is this: If we had a hearing in 10 legislative days 
and for some odd reason there was little to no factual 
information that we could deliberate, then that would be a 
perfect example of us perhaps speaking to the issues of maybe 
the inadequacies of the resources that we as a country, as 
local governments, or what have you, are putting into our 
investigative authorities, that within 2 weeks to 2 months we 
know little to nothing about the cause and effect of such a 
tragedy that it is such of great import that we actually had a 
moment of silence.
    Now, understand, we very 89 people on average that die 
every day in this country, but yet we only have an average of 
about eight moments of silence a year on the House floor. So, 
again, that brings back the purpose of my resolution, is that 
we would be changing the rules based on the gravity of--certain 
situations that have the gravity that actually cause us to have 
a moment of silence. There are when you look on an annual 
basis, 32,000 people die every year. But yet at the same time 
we only have about eight moments of silence.
    So, again, we are talking about the most egregious, most 
heightened instances in the United States where the House of 
Congress pauses and has a moment of silence. And sometimes, as 
you well know, sometimes our moments of silence actually have 
comments from the Speaker and/or somebody from that state 
likely to stand up on behalf of that community and make other 
comments about what a tragedy it is.
    So, again, I am not talking about every death in America we 
would have a hearing, only, again, on average since the Sandy 
Hook incident, that tragedy, we have only had an average of 
seven to eight moments of silence a year since then.
    Mr. Newhouse. Well, again, I appreciate you bringing the 
idea forward. I do have some, I think, concerns. But whether or 
not the moment of silence should be the trigger to hold a 
hearing or some other metric might be more appropriate, but 
certainly it is an issue that is very important to all 
Americans. So I appreciate you bringing the idea forward.
    Mr. Cardenas. Thank you. And you bring up another good 
point. Perhaps myself or somebody else could actually introduce 
a resolution saying that every time in any calendar year we 
have at least 10,000 people who have died due to gun violence, 
that would trigger the House of Congress saying it is time that 
we discuss that matter, we have had 10,000 Americans dying at 
the hands of guns in our country. And based on the information 
that I provided today, that would be perhaps three hearings a 
year, because we are seeing over 30,000 people die every year. 
Maybe that is the threshold.
    But the silence that we have is ironic, that a moment of 
silence that we have about seven or eight times a year, we have 
had zero hearings on those matters that we have had a moment of 
silence on.
    So that is the irony of it, is my resolution is trying to 
strike that balance between us showing our understanding and 
our remorse for such a tragedy, but yet at the same time, with 
all due respect, we are not clergy. Some of us might be. I am 
not. But the fact of the matter is we are elected as 
legislators. We are elected as problem solvers. We are elected 
to address the issues that face this country that are so 
egregious that we need to be involved in the solution.
    Thank you.
    Mr. Newhouse. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stivers. Thank you.
    We have been joined at the hearing by the honorable member 
from Massachusetts, Mr. McGovern.
    Do you have any questions for the panel?
    Mr. McGovern. Just a couple.
    Mr. Rooney, I didn't hear you testimony, but I am looking 
at your amendment, which I certainly would support. I would 
just expand it. I mean, to be honest with you, the idea that 
people here complain about that the executive has too much 
power, and we have just handed over to the executive the 
ability to determine where some of these Federal funds that we 
all allocate go, it never made any sense to me. And if people 
want to put in safeguard provisions to make sure that every 
earmark is vetted, I am all for it. We banned earmarks 
supposedly as a reform, but I think it has been a terrible, 
terrible mistake.
    But I think if there was a secret vote of both Democrats 
and Republicans who maybe are not in the Republican leadership 
right now, I think we would reinstate earmarks. And, again, I 
am all for checks and balances, but we are in a situation now 
where it is out of control.
    Mr. Cardenas, I absolutely agree with you. Look, here is 
the deal. The reason why I think you feel compelled to bring 
this idea to the committee is because in the greatest 
deliberative body in the world, we don't deliberate very much. 
And I think that there is a great deal of frustration over 
that.
    And nobody is saying on the issue of gun violence that 
everybody has to agree with every single hearing or every 
single vote that may come up. But the fact that there is 
silence here, I mean, we have moments of silence followed by 
silence, followed by indifference, followed by inaction, I 
think is stunning.
    And I have lost count of how many people, and, again, not 
just people who like me, but some people who don't like me very 
much, who just always ask: Why won't you even talk about this? 
Why won't you even do it.
    And we only do moments of silence when we have a massacre. 
As you mentioned, we don't do it on the deaths that happen each 
and every day. But, I mean, I have to be honest with you, I am 
embarrassed for the institution that on an issue like this 
where thousands and thousands of people are dying each year we 
can't even find the time to talk about it.
    And, again, I mean, people have different ways of dealing 
with gun violence and that is all legitimate discussion in a 
hearing or on the House floor. But to do nothing, it is 
pathetic.
    And so I support what you are trying to do. And maybe it 
might give people some pause to, if they don't want to embrace 
your idea, maybe let's bring some of these issues to the floor 
and have a debate and a vote and wherever it ends up it ends 
up. But to do nothing should not be an option.
    Mr. Cardenas. Yeah. Thank you. And again, my resolution 
doesn't require that a Member introduce legislation every time 
we have a moment of silence. It doesn't require that a 
committee or the House even pass legislation.
    Basically what it will require is, just like we openly have 
that moment of silence before the entire public on the House 
floor because it is recorded and sent out to the world for 
anybody to watch, we would actually have a dialogue as elected 
Members of Congress on the matter in which we had a moment of 
silence so we can at least express and/or dialogue, hopefully 
in an intelligent, informed manner, with witnesses and dialogue 
and-interaction.
    Mr. McGovern. Well, the other advantage of what you are 
suggesting is that it would be an indication to the American 
people that we care enough about this that we want to talk 
about it, which right now----
    Mr. Cardenas. The moment of silence actually shows that we 
care, right? It is one thing for us to show that we care, but 
it is another thing for us to show we are willing to roll up 
our sleeves and actually deliberate and/or possibly, possibly, 
actually do something that would prevent future incidents like 
that.
    Mr. McGovern. I would argue with you that I am all for 
moments of silence, but that we have done so many moments of 
silence followed by nothing that they have become empty 
gestures, and I think that is troubling.
    But thank you very much to both of you.
    Mr. Stivers. Do you yield back?
    Mr. McGovern. I yield back.
    Mr. Stivers. Thank you.
    Thank you both for being here. You certainly both have put 
some thought into your proposals. You are free to go. I really 
appreciate your thoughtful testimony.
    Mr. Rooney. Thank you.
    Mr. Stivers. The outstanding chairman of our Intelligence 
Committee and an esteemed member of the Ways and Means 
Committee, the great Member from California, Mr. Nunes, has 
been waiting very patiently. And I appreciate him being here to 
offer proposals for our rules for next year.
    Mr. Chairman, I would remind you that when you sit down, 
when you testify, pull the microphone close because they don't 
work very well in a boom situation, and make sure the green 
light is on.
    Without objection, I would like to allow any written 
materials that you brought with you be inserted into the 
record, and we welcome your comments. Thank you for being here. 
Thank you for your ideas about how to make our next Congress 
work better.
    With that, I would like to yield to Mr. Nunes and inform 
the panel that I understand Mr. Palmer from Alabama is on his 
way. If he is here before you conclude your testimony, I would 
like to add him to this panel. And if he gets here once we are 
in the questioning, we will add another panel. And if he 
doesn't get here, we will probably adjourn.
    So with that, I will yield to Mr. Nunes.

STATEMENT OF THE HON. DEVIN NUNES, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Nunes. Well, Mr. Chairman, thank you so much for 
holding this very important hearing because changes have to be 
made here in Congress. And I want to outline two problems that 
I see and solutions.
    So, obviously, we know the turmoil that can be created with 
a huge leadership vacuum in the middle of a Congress. We saw 
that this Congress where any Member, if they want to go out and 
offer something, if it becomes popularized over the Internet, 
becomes a fundraising tool, and the next thing you know you 
have people attacking leaders of our respective parties.
    So the first amendment that I would propose to clause 1, 
rule IX is to only allow for a resolution that vacates the 
Office of the Speaker to be privileged if it is offered at the 
direction of the majority or minority conference or caucus. In 
other words, a majority of the conference or caucus should have 
to vote to vacate the Office of the Speaker before a resolution 
can be offered as a privileged one on the floor of the House.
    This change would align the treatment of motions to vacate 
the Office of the Speaker with the treatment of resolutions 
from the committees of the House. It would also ensure that 
resolutions that vacate the Office of the Speaker can garner 
the support of either the majority or minority conference or 
caucus before the resolutions are considered on the floor.
    So I think this is a pretty straightforward amendment, and 
I hope that we would consider it in next year's Congress.
    The second issue that I would like to bring up is one that 
I think other Members have skirted around the edges of it, but 
it is how do we really bring back the power of the purse and 
how do we use our time wisely here as Members of Congress.
    So my suggestion is, and this is conceptual only at this 
point, would be to combine the powers of the appropriating 
committee with the authorizing committees. How that looks, I 
think there is a few different structures that you could go 
down on that road. But this is not a new idea. The 
Appropriations Committee didn't exist until 1865. And between 
1880 and 1920 authorizing committees also possessed 
jurisdiction over appropriations bills.
    The former chairman of this committee Mr. Dreier, spent a 
lot of time on this in the mid-1990s, so about 20 years ago, at 
looking at different ways to combine these. But given the wide 
scope of the Appropriations Committee's current jurisdiction, 
the authorizing committees possess the greater policy 
experience in their respective areas of jurisdiction.
    So the change, I think, would reduce the duplication of 
efforts. I think it would potentially take the time that we 
spend on the floor offering amendments each year, walking 
through appropriations bill after appropriations bill, I think 
we would stop that duplication of effort. And I think it also 
solves the problem that we face here, and that is of 
authorizing committees at the end of the day, it is really 
tough for them to actually change law. So in kind of a simple 
sense, what I am saying is that every time we pass an 
appropriations bill from here it, in effect, would be an 
authorizing bill.
    I think there are a few different ways to go about it to 
structure this. This is, like I said, this is just a concept. 
But we would have 8 to 10 A committees. Every Member that comes 
to Congress, Republican or Democrat, would sit on one of these 
A committees. And then we would have a series of B committees 
that would be maybe select committees like this committee or 
others. Obviously, the Ethics Committee comes to mind as 
another select committee. And then there might be some 
appropriations/authorizing committee combinations that would 
also be B committees.
    So the concept would be that every Member would have one A 
committee that would have appropriations and authorization 
power and then there would be enough B committees where each 
Member would probably have a second committee of some kind.
    I think what this really would do is it would make this 
place a lot more efficient, because essentially each committee 
would have their week or 2 during the year that they would 
bring their bill up to the floor. Members would bring their 
amendments before this committee. You guys would decide what 
amendments are made in order. And then we would take a week or 
2, debate those issues. And I think there would be a lot more 
buyin from the Members.
    And I think that is one of the challenges that we see here 
is there is just not a lot of buyin from Members here. Because 
if you sit on--and I did this when I was first here as a 
freshman--you sit on three committees, you sit on six to eight 
subcommittees. I mean, look, let's be honest, there is no 
possible way that a Member of Congress has the time to go to 
each one of his committee hearings. So if you had two 
committees, I think it would be much easier, and I think you 
would spend your time much more efficiently.
    So with that, I think the first rule change I offered was 
pretty self-explanatory and I think is absolutely necessary. 
The second one is more conceptual, but I would like for this 
committee to think about it and of course both of the parties 
to think about it. I am going to bring this up at our 
Republican Conference I think this afternoon.
    So with that, I would be open to any questions or 
discussion that we could have here before the people of the 
House.
    Mr. Stivers. Thank you, Mr. Chairman, for being here. Thank 
you for those thought-provoking ideas. I think, obviously, the 
first proposal makes some sense, having seen what we went 
through, frankly, to make sure that any motion to vacate has 
some reasonable support before it comes to the floor in a 
privileged way. My understanding, and I would like to ask you, 
is that anybody could still offer a motion to vacate, it just 
would not be a privileged motion unless it had the support from 
either half of the Republican Conference or half of the 
Democratic Caucus. Is that correct?
    Mr. Nunes. That is correct.
    Mr. Stivers. So it would not prevent anybody from offering 
anything, it would just change the nature of it to ensure that 
it is only privileged if it had some modicum of support.
    Mr. Nunes. That is correct.
    Mr. Stivers. And your second proposal certainly is very 
thought provoking. I know certainly for the first hundred years 
of our country we had no Appropriations Committee, and the 
authorizing committees appropriated money. And I think that 
certainly would be a big change, but it is a thought-provoking 
change, because I do believe that we get sort of drug down into 
lots of things. And maybe if there was responsibility at each 
authorizing committee to appropriate the money for the programs 
there would be a little more accountability, and as you said, I 
think you called it skin in the game.
    But I think it is certainly a thought-provoking idea, and I 
look forward to talking to you more about it and thinking about 
it as we move into next year. So we have the month of October, 
November, and December. We have about a hundred and some days 
to actually look through and think through these proposals. So 
we do have enough time to do major changes.
    But that is a big change, and it certainly is worth 
exploring. And I certainly appreciate the ideas you are 
bringing forward.
    Mr. Nunes. Thank you, Mr. Chairman.
    If I can add, one of the things that has brought me to this 
position that probably crystallized it for me was the executive 
branch's ability to hide within the jurisdictions of the 
Congress. So we really see that between the Armed Services 
Committee, the Defense Appropriations Committee, and the 
Intelligence Committee, where the Defense Department can say: 
Well this is really only the jurisdiction of the HASC. Or vice 
versa, they can say: Part of this is for the Armed Services 
Committee, but, Intelligence Committee, we will give you the 
intelligence. Well, then neither committee really knows what is 
going on.
    And so we have tried to rectify that with combining the 
Appropriations and Armed Services Committee, reading their 
members into more of the intelligence. But at the end of the 
day, my suspicion is that this is happening quite often between 
the Resources Committee and then what ultimately makes it into 
some big omnibus appropriations or bill or minibus 
appropriations bill.
    Mr. Stivers. Thank you. Thanks for your thoughtful 
proposals.
    Mr. Nunes. Thank you.
    Mr. Stivers. Mr. McGovern, I would like to recognize you.
    Mr. McGovern. Thank you. Thank you for your thoughtful 
proposals.
    And on your first proposal, I have to say in all candor 
that every time somebody talks about trying to overthrow the 
Speaker, I think: Better you than us.
    But having said that, I don't think it is good for the 
institution, and it creates uncertainty and it creates, I 
think, a climate here where, I think, it makes it much more 
difficult to get things done. And so I appreciate your 
suggestion, and I thank you for being here.
    Yield back.
    Mr. Nunes. Thank you, Mr. McGovern.
    Mr. Stivers. Thank you.
    The distinguished gentleman from Alabama, Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    I think your first idea is a very good one, and I 
appreciate your bringing it forward. The second one, as you 
said, it is conceptual. So it is yet to be worked out. So I 
would kind of like to talk about a little bit about it with 
you.
    When I was in the Alabama State Senate, I served on both--
our budget committee was also our appropriations committee. So 
I served on the education budget committee, which did the 
appropriations, and the subject matter policy committee on 
education. So it was a lot of overlap between the two. So when 
we were working on the budget, you had people sitting on the 
committee that knew pretty intimately how the programs worked, 
how the different parts of the education system in Alabama 
worked. So it was a pretty well-informed committee.
    And I think what you are saying is, is that it would help 
with the allocation of money, the appropriation of money by 
Congress to have people who are basically subject matter 
experts to be on those committees as they are making those 
decisions. I think I hear that as part of----
    Mr. Nunes. That is exactly right. And also the second, I 
think you bring up a good point about oversight. And I have 
thought conceptually about, okay, if you had these kind of 8 to 
10 super committees along with 3 or 4 other committees that do 
authorizing and appropriating, I think the best thing to do 
would be to assign members from those committees to the Budget 
Committee and to the Oversight Committee, the OGR Committee, so 
to conduct more of a forensic legal investigation.
    So I think it would actually make the Budget Committee and 
the Oversight Committee more effective because they would have 
a cross-section of all the committees where those committees 
could essentially send things to the Oversight Committee for a 
further investigation, right, like what we currently see 
numerous investigations going on by Oversight. But one of the 
challenges is, is that there are not members from all the 
committees on the Oversight Committee, and so I think that 
creates problems.
    So I just think it would be a better use of Members' time, 
I think Members would be more educated, and I think the 
government would be much better for it. And I think a lot of 
States are run similar.
    Mr. Byrne. And so making sure you are only one A committee 
assures that you become an expert on the topics that are 
covered by that A committee, and you are not pulled in, as you 
said, several different directions if you are on two or three 
different committees. You would still have a B committee which 
would be a select committee, like Rules or Ethics, but you 
would have your subject matter committee, and that is what you 
would be totally focused on in terms of your committee work.
    Mr. Nunes. That is correct. And I think it also gives more 
power to the legislative branch of government.
    Mr. Byrne. Because you would have those subject matter 
experts that could master an area as the executive department 
officials have mastered that same area.
    Mr. Nunes. That is right. And I gave the example of kind of 
in my position of walking into certain--you know, for me to 
walk over to DOD. And if you read the memo that DOD put out, 
which I think all of us should be concerned about this, there 
was a way, and I am saying this bipartisan basis, it was 
essentially a memo designed by the Legislative Affairs of the 
Department of Defense on how to divide and conquer Congress. I 
mean, I think we should take that memo and that should be one 
of the reasons for our changes.
    And I can tell you, if you sit on the Resources Committee, 
which I sat on in my first term, which I really enjoyed that 
committee, one of the things I quickly learned is no one at the 
Department of Interior or Energy cared about you at all. But if 
you were on the Interior Appropriations Committee, if you were 
a cardinal, they really cared what you had to say.
    But they could easily hide because they knew the 
appropriators would give them the money, but the appropriators 
truly had no way to rein them in if there was a program that 
they didn't like. And then they can always, if there was an 
authorizing bill, it is always easy to tie it up, because in 
the Senate, of course, it takes 60 votes to get anything done.
    So I think if you had these individual appropriations bills 
with authorizations heading over to the Senate, I think there 
are just a lot more Members that would have policy proposals 
that would be in there and it would really drive an end to get 
a legislative product and agreement between the House and 
Senate.
    Mr. Byrne. Let me sort of ask you to play devil's advocate 
against your own argument. Obviously, at some point 100 years 
ago Congress chose to go to this appropriations model. What is 
the argument, I am asking you to make the argument against your 
own proposal, but what would be the argument for having a 
bifurcation of the appropriation and the authorization process? 
What do we gain from that?
    Mr. Nunes. Well, I don't exactly know why during that 50-
year period. So for a long time we didn't have an 
Appropriations Committee. But then there was a 50-year period, 
roughly, where appropriations and authorization had to have 
like an agreement of some kind.
    So potentially maybe there is a way that you create 
subcommittees, like a subcommittee below either--because I 
don't know if you put appropriations ultimately in charge or 
the authorizing committee in charge, but you might create like 
a subcommittee within the committee that deals----
    Mr. Byrne. My guess, because of the timing of it, was that 
we went to this pure appropriations format when the Federal 
budget got to be real big, because for the first hundred years 
or so of our existence, the Federal Government just didn't 
spend that much money on a relative basis.
    But as we got into World War I, then through the 
Progressive era there were all these new agencies and 
everything passed by Congress, we got the income tax which 
brought in more revenue under President Wilson, then the 
Federal Government got to be big and it started spending more 
money, I am assuming the idea was you needed experts on how you 
spend money from a Federal level at that size.
    Have you heard anything that would be like a basis for 
that?
    Mr. Nunes. Well, I think like anything, I think those are 
all data points that are important. But I am sure about one 
thing. I think if you go back a hundred years ago and if 
Members of Congress were sitting here and watched what the 
executive branch was able to do to us, and I will refer back to 
that memo the Department of Defense put up, I think they would 
be astounded.
    So I think a lot of times we get into, you know, you have 
traditions, people get into ruts, nobody wants to make change 
because change is hard around here, probably for the right 
reasons. But I think Members of Congress that served here a 
hundred years ago would be appalled over how the executive 
branch essentially is running amuck over the legislative branch 
of government. And I think you see that reflective in the 
American people today. I think they are very frustrated with 
our abilities here.
    Mr. Byrne. Well, this would also us to rationalize 
committee jurisdictions as well.
    Mr. Nunes. I think it would make it easier.
    Mr. Byrne. Yeah.
    Mr. Nunes. Yeah.
    Mr. Byrne. Well, I appreciate the fact that you brought 
this up. This is fascinating to me. I know it is just 
conceptual at this point. I look forward to talking with you in 
more detail about it. Because this is the most serious proposal 
that I have heard to date since I have been in Congress about 
how we can reassert our authority, because I think our 
authority under Article I has been trampled upon.
    Not just by this President, by the way. This didn't just 
start with the Obama administration. This is something that has 
been coming for a long time. And I think it is something that 
affects both parties.
    So I appreciate your serious thought about this.
    Mr. Nunes. And you probably get this too, Mr. Byrne, and 
that is that people always ask: Well, aren't you equal branches 
of government? Why can't you solve this problem? And there are 
so many small problems that a lot of Members within their 
districts, within their State, that should be able to be fixed. 
And I think the American people are confused as to are these 
branches of government truly equal or not.
    Mr. Byrne. Well, that is because we have added a fourth 
branch, and that is these almost autonomous departments and 
agencies that I don't even think the President has much control 
over. And I think it is antidemocratic. I think it goes against 
the very spirit of our Constitution and what the notions of a 
representative government are all about.
    So I really appreciate your thoughts on it and I look 
forward to hearing more from you and perhaps working with you 
on this as you go along.
    And I yield back, Mr. Chairman.
    Mr. Stivers. Thank you, Mr. Byrne.
    I would like to recognize the distinguished gentleman from 
Georgia who has joined us, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    I just want to go back and follow up on this conversation. 
I appreciate it.
    It was mentioned earlier about how States many times 
operate. This is the way Georgia operates in a little bit 
different fashion, and I was on the appropriations committee in 
Georgia. Up here I had to learn the terms of budget, 
appropriations, authorizing, because in Georgia basically the 
Governor sends a budget, but then we put the appropriations and 
authorizing. It all basically comes out in the same piece of 
legislation. So it is the appropriating bill.
    This is something that has frustrated us up here when you 
have stuff that just goes unauthorized for years and years but 
it stays in the appropriations side. It is like killing a two-
headed snake here. You have to get both sides or you will never 
get the thing done.
    So I appreciate it. I like the idea. I think there are a 
lot of other issues I know that are being discussed. I was on 
the floor, unfortunately, for most of the earlier part, but I 
kept up with it.
    We are past the easy changes here. We are past the easy 
fixes and say: Well, we want to keep this because if our side 
is in power we want to have it. We are past that. The American 
people are fed up with it. All you have to do is look at the 
Presidential election. And you look at the polar sides of both 
the Democrat and the Republican election cycle and you hear the 
same things just being expressed from different political 
perspectives.
    So I think your idea is something that definitely needs to 
be worked on. This idea that our whole budget process, and I 
know our Budget chairman is even working on this, but it is 
sort of just anarchy the way that we are doing that, in the 
sense that it is an archaic sense of we do this budget, it may 
matter, it may not matter, it goes to a certain point.
    People don't understand that. They just want to know why, 
one, we are not getting it done. Number two, why it is 
ballooning like it is. And, number three, why can't we have 
more control over it.
    Believe me, there is something to be said from a committee 
perspective when you are able to sit with a department head 
across the table from you and say: Not only will you give us 
the information, if you don't, we will take money from you to 
do that.
    That is the way this thing works, and we had it work in 
Georgia that way on many occasions when executive branch 
agencies decided that they were going to not justify spending 
or not justify something in their budget. And we would come out 
and say: Okay, well, if we are not going to justify it, 
undoubtedly it doesn't need to be in the budget. And we would 
line item it out. Then we would pass it out, and then all of a 
sudden, it was amazing how all of a sudden we could get 
information.
    So I think this is just something that the congressional 
branch and both Democrats and Republicans need to have a part 
of. And this is why we are elected. And if we are not elected 
for this, I think we are going to have to.
    So I appreciate your proposal. It is for some maybe too 
outside the institutional scope. But I don't think it is. I 
think historically it is something that works. And it may be 
time to come back to something like this in this format, how 
that would work.
    But I think at the end of the day, the people would, 
whether they understood it all at first, would actually say: 
Wow, this is getting something back to being done, in this part 
of the body anyway. Can't account for the other side of the 
building here. But this at least is something for us. And I 
appreciate you bringing it.
    Mr. Nunes. Well, and I also think, Mr. Collins, too, that a 
lot of people talk about that Congress doesn't work in a 
bipartisan manner anymore. I think part of the reason that I 
came to this conclusion also is because on the Intelligence 
Committee we are known as the most bipartisan committee in 
Congress.
    Now, part of the reason why is because we actually do have 
a little bit more authority over the appropriations process. 
And so we do our best to be experts in our field to represent 
all of you accordingly. But we solve problems together.
    And I think, if you had these 8 to 10 big committees, I 
think you would get a lot more bipartisan cooperation and 
really looking in, becoming experts, as Mr. Byrne said, in 
these areas, and Republicans and Democrats would work together 
because they could really take on these agencies to make better 
policy to make the government run more efficiently.
    Mr. Collins. Well, it is just right now we look back and 
you can look historically through the lens or however you want 
to look at it, we are looking at it, whether it was 8 years 
ago, it was depending on the party in power. Again, it is a 
constant discussion. Democrats in power maybe in Congress, 
Republicans in the White House. We don't like it. Republicans 
in power in Congress, the Democrats.
    And we are just not coming together to say how can we 
actually look at a process that may work further that would 
breed that more bipartisan support, would actually get things 
vetted. And it would not, from our perspective, the way we are 
doing it right now, frankly, we have ceded that power over to 
the executive branch to sort of set it up and only we can make 
changes on the edges. And that gets into a whole other 
discussion on how much oversight we should have in directing 
the projects and vetting projects and things like that.
    So, look, there is much to be said about how we can work 
better together. The situation right now lends itself to that 
pinch point that says, okay, it is either all or none. And we 
just sort of ignore the whole fact over here that many of the 
things that we are spending money on have lost their 
authorization, have lost their even ability, under law, should 
even be funded at all. But yet we just sort of wink, nod, and 
go on and waive the rules and we move it. So I think this is 
where people are getting frustrated at us.
    So I appreciate your bringing it.
    Mr. Nunes. And I would also just say to your point, Mr. 
Collins, that think of all the time that we spend down on these 
appropriations bills that we do. And Members offer, what, 400 
amendments come to this committee? You guys sit here and comb 
through them all. And then the next bill comes up and the 
Members offer very similar types of amendments, and you guys go 
through the mall, and then we take these votes.
    Some of these bills we are hearing over 100 amendments, I 
mean, and then at the end of the day there is no real push to 
get these bills done. And you see that now, right, where we 
have some Members advocating, well, let's just do a CR to next 
year, which that gives up all of our power. And then you have 
to ask: Well, what the heck did we do the last year? What were 
we doing here this whole year offering all these amendments?
    I would think the Members would want to stop wasting our 
time.
    Mr. Collins. Well, and, Chairman, you have to do this on 
the intel side, you have to have that authorizing piece that is 
being kept up. But many of the committees, for whatever reason, 
have abdicated that responsibility. They just don't get into 
that because they either feel it too politically difficult or 
they can't get the right answer or they just won't spend the 
time into the authorizing pieces that we need to have. And that 
is not personal in any one particular committee, but it is just 
a fact of life, I mean.
    And you have got so many committees now that are off the 
authorizing process. So in other words, they deal with their 
areas, but they are not authorizers to start with. So the only 
time they have a chance to ``be a productive player'' is on 
those 100-plus amendments that we see that I have sat through 
many hours on the floor with.
    Mr. Nunes. Right. And you and I and everybody in this room 
knows that those amendments seldom ever make it past the 
process. And they really don't have any authorization ability. 
They are good for messaging, but at the end of the day, they 
don't become law and they don't have an impact.
    Mr. Collins. Well, and that is why the process. And it goes 
back to what has always been said: If you really want something 
changed in the appropriations process, you start in the 
Appropriations Committee. You get it written into the base 
language of the bill. You do it the way that we should be doing 
these things to start with.
    You are exactly right, because many people who come who 
have never had legislative experience or anything, when it does 
actually work like it should and goes to the Senate and we have 
that thing called a conference committee, which needs to be 
used a lot more around here, there are going to be things that 
are dropped out, and there are going to be things that are 
dropped out simply because votes are not where they need to be, 
and they will look back to that base text.
    It is a whole new world of thinking. We have got to start 
thinking in different terms around here. Otherwise we will see 
the churn, if you would, of discomfort among Members. How many 
times have you or I been in a group of Members and the thought 
will come: What are we doing? Why are we in this boat again? 
Well, it is the same thing over. And I don't care if it is the 
Democrats in charge or Republicans in charge. It has been said 
now for a long time. And so some of these changes, whether they 
get taken, they don't get taken, there are other areas that we 
can look on.
    But this is an area that just really hits at the whole, 
from our perspective, hits at really, I think, what Mr. Byrne 
said, was having that expertise area, something you want to be 
a part of, you feel valued, your input is valued, and you are 
able to look into areas in your district or in your State or in 
your region that actually make a substantive difference, that 
you can go home and say: Okay, I am listening to you. Here is 
how we changed it. Here is how we authorized it. We are not 
just doing something that we expect the rest of the country to 
do, we are actually doing it here.
    So, again, I think it is a great idea. Let's continue these 
conversations. The worst thing I could see, and I know the 
chairman is not wanting to pass this off, is to have these 
hearings and do nothing. Because I am firmly committed to 
helping any way we can to actually find substantive changes 
that can work for both sides. And if we can do that, then I 
think we will benefit from it. So I appreciate that.
    I yield back.
    Mr. Stivers. Thank you to the gentleman from Georgia. And I 
will say that we are committed on this subcommittee to 
listening to the Members, continuing to work with the Members 
as we work to perfect the rules for the next Congress, because, 
as you said when you opened, changes are needed.
    The gentleman from Washington, Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    And thank you, Mr. Nunes, for bringing a couple very 
intriguing ideas forward. You always have good insight on ways 
to make things better.
    I always thought the Rules Committee was the most 
bipartisan committee, but apparently there is a different 
opinion on that.
    Mr. Nunes. This might be the most bipartisan I have seen 
it.
    Mr. Newhouse. I will give you that.
    Mr. McGovern. That is because I am here.
    Mr. Newhouse. We are having a good day, just put it that 
way. But, no, I appreciate it.
    I really like the first idea you brought forward. I think 
it allows an individual to effect change but not be so 
disruptive to the institution that it could be seen as a 
nuclear option. So I appreciate your thoughtfulness there.
    And then in the appropriations process, it seems to me what 
you are bringing forward would allow engagement by all Members 
in a very important process and not just relegate it to the 
amendment process on the floor, which, as you said, lacks 
perhaps some of the effectiveness we would like to see happen.
    It almost appears to me that we would have, instead of one 
Appropriations Committee, 8 to 10 or 12 Appropriations 
Committees, that every Member would have a role to play and 
become experts in those areas that are so important. You can be 
an inch deep and a mile wide around here pretty easily. But if 
we can focus our efforts on particular committees, I think that 
would be very helpful not only for us individually, but for the 
Congress and the work we do.
    Do you think--and I don't want to re-cover a lot of ground 
that has been covered, I appreciate the conversation so far and 
your answers--but do you think by making this change--something 
that has been very frustrating to me is us not completing our 
appropriations task--would this be more conducive to actually 
getting appropriations bills across the finish line and 
following through with our responsibilities and getting the 
appropriations process done every year?
    Mr. Nunes. I think the odds would be higher, because I 
think the more bipartisan cooperation that happens to actually 
go in and solve problems, and the more a committee works 
together to put forth a product every year, and then that 
committee would have had to rally support on the floor for 
their bill, I think you just get a lot more buy-in from all the 
Members that ultimately pushes the chairman and ranking member 
of that committee, if they want their committee to be relevant, 
and if you are sitting on an A committee, I can't imagine you 
don't want to be relevant here, it means that you are going to 
have to pass something overwhelmingly, you are going to have to 
work with the Senate and push the Senate to get something done.
    And then even if you end up in a minibus or omnibus 
situation, at least those chairmen and ranking members will be 
represented in the room. Where today when we do these omnibus 
bills, and I am not saying anything bad about the Members, but 
at the end of the day, it is only basically one Member from the 
Republican Party, one Member from the Democratic Party in the 
room on the entire spending bill for the year. At least there 
would be more people engaged, more people at the table at the 
end of the day when you are trying to close up an agreement.
    Mr. Newhouse. Well, that has certainly been one of the 
biggest frustrations of me as a freshman, of seeing our 
appropriations process essentially break down. And I think that 
frustration is shared by a lot of people. This whole process 
becomes kind of a black hole. It is hard to get information, 
hard to know exactly what is going on. So anything that would 
improve the process I am certainly willing to look at.
    Mr. Nunes. Remember on the Senate side too, most of the 
Senators sit on both the Appropriations Committee or the 
Finance Committee and then the authorizing committees. So they 
have got their hands in both of those pots. So we are really at 
a disadvantage when we are dealing with the Senate, because 
they do have that power coming from both angles.
    Mr. Newhouse. Well, good. My compliments to you for 
bringing this forward. And I agree. And, like I said, I have 
really appreciated the conversation and the questions. And 
hopefully we can move forward to something positive here.
    So thank you, Mr. Chairman. I yield back.
    Mr. Stivers. Thank you.
    And one final thing I just thought of as Mr. Newhouse was 
asking his very thoughtful questions. I would ask you, as you 
are putting together the actual language on the second 
proposal, you try to be thoughtful of the many great Members we 
have with a lot of tenure on the Appropriations Committee and 
give them credit for their tenure on the Appropriations 
Committee when they move to another committee if we were to 
accept this rule.
    Because I think, while they will still all be against it, 
it at least would give them credit and not just have them 
starting from scratch and starting as if they are a brand new 
Member on a committee, giving them some kind of thoughtful 
consideration. Maybe straight credit for every year they served 
on the Appropriations Committee to any committee that they 
would transfer to.
    Mr. Nunes. Well, I wanted to share it before the public 
because I think transparency is important and I think ideas are 
important to come forward in order to make the best product if 
we do end up making some major changes in the next Congress.
    Mr. Stivers. Very thoughtful and provocative idea and it is 
certainly worth looking into. Thank you. And really appreciate 
you being here.
    I would like to recognize Mr. McGovern. I believe he has 
something to submit for the record.
    Mr. McGovern. I have a few unanimous consent requests, Mr. 
Chairman.
    One is Congresswoman Schakowsky, who couldn't be here, had 
a proposal that the committee chairs should consult with 
ranking members before issuing a subpoena. And if the ranking 
member objects to the issuance, there should be a vote of the 
committee, and the chair should post the subpoena and 
justification for the subpoena on the committee Web site and 
Clerk's Web site. So I would like to ask unanimous consent to 
insert her testimony.
    Mr. Stivers. Without objection.
    [The statement of Ms. Schakowsky can be found in the 
Appendix as Insert 2-1]
    Mr. McGovern. Also, I ask unanimous consent to insert into 
the record a letter from Democrats on the Energy and Commerce 
Select Panel dated February 12, 2016, that details Chairwoman 
Blackburn's abuse of her unilateral subpoena power and failure 
to comply with the committee's requirement that she should 
consult with the ranking members prior to issuing subpoenas. I 
would like to have that put in the record.
    Mr. Stivers. Without objection.
    [The statement can be found in the Appendix as Insert 2-2]
    Mr. McGovern. And I ask unanimous consent to insert into 
the record a letter from Congresswoman Schakowsky, the Select 
Panel's ranking member, to Chairwoman Blackburn, dated June 3, 
2016, that expresses the ranking member's concern over how the 
chair's abuse of her unilateral subpoena power has led to the 
disclosure of private medical information.
    And I would also like to ask unanimous consent to insert 
into the record a letter from Ranking Member Johnson of the 
Science, Space, and Technology Committee to Chairman Smith 
dated June 23, 2016, that highlights the chair's abuse of his 
unilateral subpoena power and explains how this decision to 
issue subpoenas to State attorneys general regarding their 
investigations of Exxon's alleged fraud regarding climate 
change is an illegitimate and unconstitutional encroachment on 
State sovereignty.
    And finally, I would like to ask unanimous consent to 
insert into the record a letter from Ranking Member Cummings to 
the Committee on Oversight and Government Reform to Chairman 
Chaffetz dated September 9, 2016, detailing the chairman's 
abuse of his unilateral subpoena authority in order to tarnish 
the Democratic candidate for President.
    Mr. Stivers. Thank you. Without objection, those will be 
submitted into the record.
    [The statement of Mr. Cummings can be found in the Appendix 
as Insert 2-3]
    Mr. Stivers. Without objection, any other materials 
submitted to the subcommittee for purposes of this hearing 
shall be printed in the record.
    Mr. Stivers. Hearing none, without objection, the committee 
is adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                APPENDIX

                              ----------                              


                          Prepared Statements

INSERT 1A-1: Statement of the Hon. John Culberson, a 
    Representative in Congress from the State of Texas
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
                               Resolution

    Amending the Rules of the House of Representatives to 
further strengthen the rule regarding congressional earmarks.
  Resolved, That (a) paragraph (a) of clause 9 of rule XXI of 
the Rules of the House of Representatives is amended to read as 
follows:
  ``(a) It shall not be in order to consider--
          ``(1) a bill or joint resolution reported by a 
        committee if that bill or joint resolution or 
        accompanying report contains any congressional earmark 
        unless--
                  ``(A) it is for a Federal, State, or local 
                unit of government for a purpose that involves 
                a direct Federal interest, whether or not it is 
                targeted to a specific State, locality, or 
                Congressional district;
                  ``(B) the Member, Delegate, or Resident 
                Commissioner sponsoring such congressional 
                earmark is identified;
                  ``(C) the congressional earmark is initiated 
                in committee; and
                  ``(D) the congressional earmark falls within 
                the applicable section 302(a) allocation and 
                does not increase total spending for any fiscal 
                year;
          ``(2) a bill or joint resolution not reported by a 
        committee if it contains any congressional earmark; or
          ``(3) an amendment to a bill or joint resolution 
        described in paragraph (1) or (2).''.
  (b) Paragraph (d) of clause 9 of rule XXI of the Rules of the 
House of Representatives is repealed and paragraphs (e), (f), 
and (g) of such clause are redesignated as paragraphs (d), (e), 
and (f), respectively.
INSERT 1A-2: Statement of the Hon. Pete Sessions, a 
    Representative in Congress from the State of Texas
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
INSERT 2-1: Statement of the Hon. Janice D. Schakowsky, a 
    Representative in Congress from the State of Illinois
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
INSERT 2-2: Statement of the Hon. Janice D. Schakowsky, a 
    Representative in Congress from the State of Illinois
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    
INSERT 2-3: Statement of the Hon. Janice D. Schakowsky, a 
    Representative in Congress from the State of Illinois
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
       
</pre></body></html>
